        We will post this advisory on our Web site (www.doioig.gov/recovery) and
Recovery.gov. Information contained in this advisory may also be included in our semiannual
reports to Congress. If you have any questions, please do not hesitate to contact me.

Requirements Definitized

        Defining the Department’s requirements regarding IDIQ contracts is the cornerstone for
an effective acquisition.4 Using this knowledge, the contracting officer can determine the
appropriate contract vehicle and provide prospective offerors with notice of the goods and
services to be procured. Congress’s Federal Acquisition Streamlining Act encourages the use of
IDIQ contracts. The Senate report on this Act, however, states that “indiscriminate use of task
order contracts for broad categories of ill-defined services unnecessarily diminishes competition
and results in the waste of taxpayer dollars.”5 The failure to definitize requirements early in the
acquisition process could make the Government vulnerable to contract modifications, cost
overruns, and potential litigation.

Incomplete Acquisition Planning

        Agencies are required under the Federal Acquisition Regulation (FAR) to perform
acquisition planning and conduct market research for all acquisitions as well as to promote and
provide for full and open competition. When full and open competition is not required, agencies
should promote competition to the maximum extent practicable with due regard to the nature of
the supplies or services to be acquired.6 Proper acquisition planning is essential to capitalize on
spending Recovery Act dollars and protecting the investment of taxpayers. Furthermore, Section
1554 of the Recovery Act requires that “[t]o the maximum extent possible contracts funded
under [the] Act shall be awarded as fixed price contracts through the use of competitive
procedures.”7 Contracting activities should conduct acquisition planning and market research
prior to the selection of a contract vehicle, especially when IDIQ or other contract vehicles are
under consideration.

       Before proceeding with an acquisition strategy that could lead to a contract containing
consolidated procurement requirements, procurement activities are required to conduct market
research to determine whether consolidation of the requirements is necessary and justified.8
Packaging huge quantities of diverse services and supplies under one statement of work for an
IDIQ makes contract administration and oversight especially unwieldy. Certain services, such as
the removal of different types of hazardous waste, must be addressed by uniquely qualified
contractors. When IDIQ solicitations are used to acquire a plethora of services and supplies that
cannot be delivered by one contractor, there is potential for multiple layers of overhead and


4
  See Report of the Acquisition Advisory Panel to the Office of Federal Procurement Policy and the United States Congress, 

January 2007, p. 7 (“Requirements Definition is Key to Achieving Benefits of Competition.”); FAR Part 11. 

5
  The Senate Report for the Federal Acquisitions Streamlining Act of 1984, P.L. 103-355, discussing the use of task and delivery

orders for advisory and assistance services. S. Rep. 103-258, 1994 U.S.C.C.A.N 2561. This concern was later confirmed when 

the Section 800 Panel found abuses that included agencies drafting overly broad statements of work and issuing delivery and task 

orders that exceeded the original contract’s specifications. https://www.acquisition.gov/comp/aap/24102_GSA.pdf 

6
  FAR § 7.102(a). 

7
  Pub. L. No. 111-5. 

8
  15 U.S.C. § 644(e)(2)(A). 

                                                                                                                                 2
further expense to the agency. In addition, unqualified contractors may attempt to provide these
services to be responsive to the IDIQ umbrella contract solicitation.
        After preliminary review of a BIA IDIQ contract, we perceived a lack of engagement by
the bureau regarding small business requirements in the planning phase as required by the FAR. 9
“For solicitations involving bundling that offer a significant opportunity for subcontracting, the
contracting officer must include a factor to evaluate past performance indicating the extent to
which the offeror attained applicable goals for small business participation under contracts that
required subcontracting plans.”10

Competition Concerns

        The Competition in Contracting Act (CICA) requires that procurements be conducted “in
a manner designed to achieve full and open competition for the procurement.”11 Agencies must
reasonably specify their needs12 and develop specifications in a manner designed to achieve that
full and open competition.13 The U.S. Comptroller General noted in a letter14 to the Acting
Secretary of the Army that,

          [I]nclusion of broad categories of work in one statement of work constitutes a
          form of bundling, since different kinds of work (or tasks in different geographical
          or technical areas) are combined into one procurement, and an overly broad
          statement of work can unjustifiably diminish competition just as bundling does,
          by deterring businesses, particularly small businesses, from competing for a
          contract, notwithstanding their ability to perform some of the work at issue.

With respect to this same acquisition, the U.S. Comptroller General raised a concern that the
“IDIQ contract did not comply with the CICA requirement for full and open competition
because the work statement in that contract is so broad that it does not reasonably describe the
scope of services needed, and therefore does not provide potential offerors notice of the work
that will be within the scope of the resulting contract.”15

      The U.S. Comptroller General’s concerns point to issues that we discovered in reviewing
the DOI bureaus’ IDIQ contracts. BIA’s IDIQ contract encompassed repairs, renovations, and
new construction in its statement of work.16 Yet the needs and requirements inherent in the

9
  FAR §§ 19.201and 7.104(d)(1). “To the maximum extent practicable, procurement strategies used by the various agencies 

having contracting authority shall facilitate the maximum participation of small business concerns as prime contractors, 

subcontractors, and suppliers.” 15 U.S.C. § 644(e)(1). 

10
   FAR §15.304(c)(3)(ii). See also, FAR 2.101(b), definition of “bundling” and of “separate smaller contract,” as it is referred to

in the definition of “bundling.” 

11
   41 U.S.C. § 253a(a)(1)(A). 

12
   FAR § 16.504(a)(4)(iii). 

13
   41 U.S.C. § 253a(a)(1); 10 U.S.C. § 2305(a)(1).

14
   Letters to the Air Force and Army concerning Valenzuela Engineering, Inc., B-277979, January 26, 1998. (Although the 

associated protest was dismissed as untimely, the Comptroller General’s review indicated that violations of the Small Business 

Act and the Competition in Contracting Act had occurred. Letters were issued to the Air Force and the Army to bring these

matters to their attention.)

15
   Id.
16
   At the time of the contract solicitation, the BIA was aware of the locations, and the numbers and types of buildings to be
constructed. This information, however, was not fully divulged to prospective offerors. The initial statement of work was
subsequently amended to provide the locations and zip codes of prospective construction sites. Relevant information such as the
type and size of the building was not provided.
                                                                                                                                    3
construction of new buildings are neither indefinite nor nebulous and must address, among other
requirements, unique environmental concerns and tenant requirements. Nonetheless, an IDIQ
contract for new construction nationwide was issued rather than discrete, fixed-price contracts
for each specific building as generally required by FAR.17 Recently, FWS issued an IDIQ that
was competed for services not only throughout the country, but also in U.S. territories including
the U.S. Virgin Islands, Puerto Rico, and the Insular Areas. In a previous opinion, the U.S.
Comptroller General found the statement of work for operations and maintenance at any
Government facility in the world impermissibly broad. Including such services for Government
facilities worldwide was insufficient to aid offerors in making an intelligent decision whether to
submit a proposal or what was necessary to satisfy the actual needs of the Army.18 We question
whether the bureaus’ IDIQ solicitations encompassed too vast an area to encourage competitive
bidding locally or among small businesses.

        Advanced planning and clear specifications are crucial to give contractors sufficient
information to bid and price correctly, to perform and be held accountable, and to prevent costly
modifications and overruns. FAR states that “Generally, firm-fixed-price contracts shall be used
to acquire construction.”19 We are concerned that the use of IDIQ contracts for services and
supplies for new construction could leave the Department vulnerable to creating task orders for
piecemeal supplies and services that may unnecessarily increase project costs. It may lead to
additional layers of overhead and additional profit to the contractor(s). In the worst case scenario,
it may appear analogous to a time and materials contract. Competition is reduced when potential
offerors have inadequate information to ascertain whether they can be responsive to the
Government’s broad needs, including construction outside of the continental U.S. 20

        Such concerns were borne out in a BIA IDIQ contract that was competed. A statement of
work, reflecting that construction is to be performed throughout the country rather than the
construction of a specific building at a designated site, may have dissuaded local and regional
contractors from competing. Ultimately, only two contractors were awarded contacts to perform
large, new construction nationwide with a minimum guarantee of $3 million and a maximum
value of $10 million. As task orders for large-scale construction were limited to only two
awardees, subsequent competition for task orders was significantly reduced.21 The proposals
submitted by the two contractors for one task order for construction of a new building
significantly exceeded the Government estimate. Thus, the task order was cancelled and required
a new solicitation solely for the construction of the one building. We commend BIA for not
awarding the task order; however, we believe that valuable time and resources may have been
lost by not planning and competing for the specific construction project from the onset.


17
   FAR § 36.207(a). 

18
   Letters to the Air Force and Army concerning Valenzuela Engineering, Inc., B-277979, January 26, 1998. 

19
   48 C.F.R. § 36.207(a). 

20
   “One of the major problems with the multiple award ID/IQ system is the prevalent practice of drafting overly-broad statements 

of work that cover the sun, the moon and the stars. This causes problems of competition, when orders can be placed for just about 

any service or product without going through normal contract award channels, and can lead to potential fiscal law problems, 

since the purpose of the money may not match the type of funds available, even though the order fits within the original broad

statement of work.” Current Problems with Multiple Award Indefinite Delivery/Indefinite Quantity Contracts: A Primer by Major 

Michael C. Wong, The Army Lawyer, DA PAM 27-50-400, September 2006, quoting from an interview with Major Gregory

Bockin, Trial Attorney, Contract Appeals Division, U.S. Army Litigation Division, in Charlottesville, Va. (Dec. 9, 2004). 

21
   Although pricing is ordinarily established at the time of award for an IDIQ contract thus limiting cost escalation, we are 

informed that definitization of requirements and pricing is to be performed at the task order level.

                                                                                                                                4
Best Value Determination

        In order to make a “best value” determination, the Government must clearly articulate the
requirements so that potential offerors may respond and provide pricing and other information.
Best value means the expected outcome of an acquisition that, in the Government’s estimation,
provides the greatest overall benefit in response to the requirement.22 If the requirements are not
definitized at the IDIQ level, a determination cannot be made that awardees have offered the best
value for similar, specific requirements. We recognize that task order proposals may further
reduce pricing provided at the IDIQ level. One method to assess a potential offeror’s technical
approach is to use sample tasks in the IDIQ solicitation. This would allow the Department to
evaluate the offeror’s pricing, qualifications, experience, and understanding of DOI’s
requirements. In addition, the Government can consistently evaluate offerors’ proposals.

Recording Obligations

         An IDIQ contract must require that the Government order and the contractor furnish at
least a stated minimum quantity of supplies or services.23 To ensure that an IDIQ contract is
binding, the minimum quantity must be more than a nominal quantity but should not exceed the
amount that the Government is fairly certain to order.24 Consistent with 31 U.S.C. § 1501(a)(1),
an obligation should be recorded against Recovery Act funds for an amount reflecting the
liability incurred as a result of the binding contract at the time that the contract is awarded.25
During our review of recipient reporting, we noted instances in the Federal Procurement Data
System – Next Generation (FPDS-NG) where an IDIQ contract was reported, but zero dollars
were recorded rather than the obligation of the contractual minimum26. In another instance, when
asked why one contract was not recorded in FPDS-NG, the contracting officer explained that the
contract was a basic IDIQ contract with no dollars obligated, and the bureau’s system does not
allow entering zero dollar awards.

Conclusion

        The prudent use of IDIQ contracts may provide a helpful and administratively less
cumbersome means of meeting the Department’s reoccurring needs. Nonetheless, proper
acquisition planning and clearly definitized requirements are crucial for effective procurements
and should not be circumvented. Broad and imprecise requirements adversely affect competition
and thwart efforts to make best value determinations.




22
   FAR § 2.101. 

23
   FAR § 16.504(a)(1). 

24
   FAR § 16.504(a)(2). 

25
   See Matter of: Bureau of Customs and Boarder Protection—Automated commercial Environment Contract,              B-302358, 

December 27, 2004. 

26
   FPDS-NG is a General Services Administration (GSA) system. An official from the GSA Office of Acquisition Management 

& Policy Division confirmed that the minimum guarantee for an IDIQ contract, necessary to form a binding agreement with the

contractor, is obligated in the financial system and reported to FPDS-NG at the time the IDIQ is awarded. See also, Procurement 

Information Bulletin No. PBS PIB OGMIDIQC 072004-1, issued by the GSA Public Buildings Service, Office of Business 

Operations – Procurement Division, entitled “Obligation of Guaranteed Minimum on Indefinite-Quantity Contracts,” effective 

July 15, 2004.

                                                                                                                               5
We recommend that:

        1. PAM and heads of the contracting activities for bureaus and offices emphasize in their
           guidance and through training that requirements for IDIQ contracts be sufficiently
           defined to enhance competition;

        2. PAM and heads of contracting activities for bureaus and offices provide training and
           additional guidance for acquisition planning, market research, and small business
           participation, when anticipating the use of IDIQ contracts;

        3. Department guidance be issued stating that new construction, where the designs are not
           repetitive or standardized and the Government’s specific needs are clear, be separately
           solicited to enhance competition and ensure best value; and

        4. Department guidance be issued to ensure that IDIQ contracts have adequate
           consideration to bind the Government and that the Government’s liability is properly
           recorded.

cc: 	   Deputy Secretary, Department of the Interior
        Assistant Secretary — Policy, Management and Budget
        Director, Office of Acquisition and Property Management
        Acting Director, Office of Financial Management
        Departmental GAO/ OIG Audit Liaison
        Audit Liaison, Office of the Secretary




                                                                                                    6
          



                                                     


                       Report Fraud, Waste, and 
  
                          
                           Mismanagement


                                                       
                                 Fraud, waste, and mismanagement in
                             government concerns  everyone: Office of
                                 Inspector General staff, Departmental
                         employees, and the general public. We actively
                         solicit allegations
                                                of any inefficient and wasteful
                                  practices, fraud, and abuse related to
                              
                           Departmental       or Insular Area programs and
                          operations. You can report allegations to  us in
                                               several  ways.
                                                     
                                                         
                                                     
                                                     
                  By Mail:  	          U.S. Department of the Interior  
                                       Office of Inspector General  
                                       Mail Stop 4428 MIB  
                                       1849 C  Street, NW
                                       Washington, D.C. 20240  
                   
                  By Phone :  	        24‐Hour Toll Free	                800‐ 424‐5081   
                                       Washington Metro Area             703‐ 487‐5435   
                   
                           	  
                  By Fax:	             703‐487‐5402  
                   
                  By Internet:		       www. doioig.gov/hotline
               




                                                                                             
